<html>
<title> - HOW TAX COMPLEXITY HINDERS SMALL BUSINESS: THE IMPACT ON JOB CREATION AND ECONOMIC GROWTH</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 HOW TAX COMPLEXITY HINDERS SMALL BUSINESS: THE IMPACT ON JOB CREATION 
                          AND ECONOMIC GROWTH

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             APRIL 13, 2011

                               __________


                                [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 112-010
          Available via the GPO Website: http://www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
66-457                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9c8b94bb988e888f939e978bd5989496d5">[email&#160;protected]</a>  

                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                      CHUCK FLEISCHMANN, Tennessee
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           OPENING STATEMENTS

Hon. Sam Graves..................................................     1
Hon. Nydia M. Velazquez..........................................     2

                               WITNESSES

Ms. Nina E. Olson, National Taxpayer Advocate, Washington, DC....     3
Steven J. Strobel, Executive Vice President and Chief Financial 
  Officer, BlueStar Energy Solutions, Chicago, IL................     5
Robert Kulp, Founder, Co-owner and Business Development Director, 
  Kulp's of Stratford, Stratford, WI.............................     7
Monty W. Walker, CPA, Walker Business Advisory Services, Wichita 
  Falls, TX......................................................     8

                                APPENDIX

Prepared Statements:
Hon. Yvette Clark................................................    70

Statements for the Record:
The Corporation for Enterprise Development.......................    77


 HOW TAX COMPLEXITY HINDERS SMALL BUSINESS: THE IMPACT ON JOB CREATION 
                          AND ECONOMIC GROWTH

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:00 p.m., in room 
2360, Rayburn House Office Building. Hon. Sam Graves (chairman 
of the Committee) presiding.
    Present: Representatives Graves, West, Walsh, Barletta, 
Velazquez, Schrader, Altmire, Clarke, Chu, Cicilline, and 
Keating.
    Chairman Graves. Good afternoon. I call the hearing to 
order. I want to thank our witnesses all for being here today. 
I know some of you have come a long way and we appreciate it 
very much.
    The U.S. economy appears to be strengthening and the labor 
market appears to be improving slowly. But energy prices are 
volatile and months of rising food, clothing, and fuel has also 
caused wholesale prices to rise. Small businesses continue to 
be affected by the uncertainty of more mandates, higher taxes, 
and additional regulations. It is difficult for our nation's 
job creators to do what we are expecting them to do and that is 
create jobs and spur investment. Against this backdrop and 
during the week prior to tax day, we meet to examine the 
federal tax code complexity and its impact on small businesses.
    In our 2010 Report to Congress, the National Taxpayer 
Advocate, who is with us today, identified tax complexity as 
the top problem facing taxpayers. She also reported that U.S. 
taxpayers and businesses spend about 6.1 billion hours per year 
to comply with filing requirements. The tax code continues to 
expand--it is now 3.8 million words and there have been over 
4,428 changes to it in the past 10 years, an average of more 
than 1 per day.
    It is no secret that tax complexity has a disproportionate 
impact on small firms. The Small Business Administration's 
Office of Advocacy reported that small firms spend more per 
employee than large businesses to comply with the tax 
paperwork, recordkeeping, and reporting requirements. Surveys 
by the National Federation of Independent Business consistently 
rank federal taxes as one of the top five issues of concern to 
entrepreneurs. At a time when every added expense can mean the 
difference between a small entity's success or failure, clearly 
tax simplification is needed.
    I am encouraged by Chairman Ryan's budget proposal, which 
recommends lowering the top individual and corporate tax rates. 
According to the NFIB, nearly 75 percent of small firms are 
organized as pass-through entities such as sole 
proprietorships, partnerships, or LLCs where business income is 
passed through and taxed at the individual rate. In other 
words, most small businesses file their taxes on an individual 
return. Consideration of corporate tax reform without also 
considering individual rates would leave many small business 
owners out of the debate.
    Again, I want to thank all of our witnesses for being here 
today and I will now turn to Ranking Member Velazquez for her 
opening statement.
    Ms. Velazquez. Good afternoon, everyone.
    With tax day fast approaching, filing taxes is on the minds 
of many Americans, particularly small business owners. This 
Committee is well aware of the challenges created by the 
Internal Revenue Code. Over the past decade, businesses have 
repeatedly expressed to Committee members that tax complexity 
has become a major obstacle to job creation. While this issue 
has been recognized for some time, the problem seems to be 
getting worse, not better. As the Chairman stated, there has 
been approximately 4,428 changes to the tax code, an average of 
1 per day. These changes compound an already burdensome tax 
system creating confusion and higher compliance costs. In fact, 
individuals and businesses spend about 6.1 billion hours per 
year complying with the filing requirements.
    These burdens can hurt small businesses as they seek to 
compete both domestically and abroad. Small firms now spend up 
to 67 percent more on tax compliance than their corporate 
competitors. And on the global front, the U.S. ranks an 
embarrassing 65th worldwide for time spent complying with 
business tax filings.
    This hearing will hopefully offer insight, not only on the 
problem but also on potential solutions. After all, as we look 
at policies to promote growth, tax reform should be a top 
priority. A fairer and simpler tax code can encourage 
entrepreneurship, promote investment, and lead to job creation. 
One thing is clear as we talk about reform. The needs of small 
businesses must come first. We cannot move forward without 
their input, and we must fully recognize the impact of how any 
changes will affect them. At a time when the economy is 
starting to exhibit sustained job creation, small firms cannot 
have new obstacles to expansion.
    Fundamental tax reform obviously poses its own challenges. 
Back in 2005, this Committee heard testimony from the Tax 
Reform panel appointed by President Bush, but his 
recommendation, its recommendations went nowhere. The latest 
2010 Deficit Commission similarly recommended a major overhaul 
to the tax code but the report did not gather enough support to 
force a vote in Congress.
    Today's hearing will hopefully start the process of 
crafting solutions to our overly complex tax code. It is clear 
that small businesses and our economy can come out winners if 
reform is done right. Small businesses are the drivers of the 
nation's economy and we cannot afford to put the cost of 
collecting taxes on them. Entrepreneurs do not want 
preferential treatment; they just want equal treatment.
    I look forward to today's testimony and I thank the 
witnesses for their participation. With that I yield back.
    Chairman Graves. If the other Committee members have 
statements for the record I would appreciate you submitting 
those.
    I would also like to take a real quick opportunity to 
explain the timing lights. Each of you has five minutes, and 
please try to stay within the five minutes. The light will be 
green and then it will turn yellow when we have one minute left 
and red when the time is up.

 STATEMENTS OF THE HONORABLE NINA E. OLSON, NATIONAL TAXPAYER 
   ADVOCATE; STEVEN J. STROBEL, BLUESTAR ENERGY SOLUTIONS ON 
BEHALF OF THE NATIONAL SMALL BUSINESS ASSOCIATION; ROBERT KULP, 
     KULP'S OF STRATFORD ON BEHALF OF THE NATIONAL ROOFING 
   CONTRACTORS OF AMERICA; MONTY W. WALKER, WALKER BUSINESS 
                       ADVISORY SERVICES

    Chairman Graves. I will now introduce our first witness, 
Nina Olson. She is the National Taxpayer Advocate, an 
appointment she has had since 2001. She leads the Internal 
Revenue Service's Taxpayer Advocate Service. The office is 
dedicated to assisting taxpayers with their IRS problems. And 
again, thank you for coming.

                   STATEMENT OF NINA E. OLSON

    Ms. Olson. Thank you, Mr. Chairman, Ranking Member 
Velazquez, and distinguished members of the Committee. Thank 
you for inviting me to testify today about the impact of tax 
complexity on small businesses.
    My office estimates that small businesses alone spend at 
least 2.5 billion hours each year complying with income tax 
filing requirements. This is not a trifling matter because 
small businesses are the creators of most new jobs and the 
employers of about half the private sector workforce. To state 
the obvious, the more time and resources a small business 
spends on tax compliance, the less time it has to grow and hire 
employees.
    In my 2010 Annual Report to Congress, I identified the need 
for Tax Reform as the number one most serious problem facing 
taxpayers and the IRS. The tax code is filled with special 
breaks helping taxpayers who can afford tax advice and 
discriminating against those who cannot. This complexity 
confuses taxpayers and creates a sense of distance between 
taxpayers and the government, which undermines taxpayer morale 
and leads to lower levels of voluntary compliance. The 
complexity of the tax code is also burdensome for the IRS, 
making it more difficult for the agency to meet taxpayer needs 
and probably resulting in more audit and enforcement actions 
than a simpler code would require.
    My report advocates for comprehensive tax reform, which I 
believe is ultimately a necessity. But there are smaller steps 
we can take right now to ease the compliance burden of small 
businesses. I will briefly highlight several tax requirements 
that impose unnecessary compliance burdens on small business 
and require simplification or at the very least, more guidance.
    First, the home office business deduction is unnecessarily 
complex and requires time-consuming recordkeeping by many small 
businesses. We recommend the creation of an optional standard 
home office business deduction.
    Second, the S corporation election process is confusing and 
causes many taxpayers to make inadvertent errors. As a result, 
some businesses inadvertently become classified as C 
corporations and their shareholders cannot deduct operating 
losses on their individual tax returns.
    To address these problems, we recommend simplifying the 
election process to allow small business corporations to make 
an S election by checking a box on a timely filed Form 1120S.
    Third, business owners need greater flexibility under the 
Trust Fund Recovery Penalty, which can apply against a person 
responsible for filing or paying over a business's employment 
taxes. Currently, the strict application of the penalty's 
willfulness component requires the responsible person to use 
all available funds to pay the delinquent tax and prohibits the 
use of any funds to pay operating expenses of the business even 
to keep the business going. We recommend the IRS not assess 
this penalty where there was an intervening bad act such as 
embezzlement and the taxpayer makes payment arrangements and 
remains current with payment and filing obligations.
    Fourth, the IRS has long acknowledged that taxpayer service 
and enforcement both play important roles in maximizing tax 
compliance, but the IRS's compliance initiatives these days are 
rooted exclusively or primarily in enforcement measures. 
Particularly when it comes to small business taxpayers, I 
believe outreach initiatives that educate taxpayers about the 
bewildering array of income and employment tax requirements 
they face are critical. Several years ago the IRS conducted an 
extensive series of surveys and research studies to better 
understand the service needs and preferences of individual 
taxpayers. We have recommended the IRS replicate this process 
to better understand the service needs and preferences of small 
business taxpayers as well.
    Finally, I want to close with a word about IRS collection 
policies and procedures. The IRS does not do enough to work 
proactively with small business taxpayers that have emerging 
collection problems, particularly those who fall behind on 
their employment tax obligations. The IRS should provide early 
assistance, including calling the taxpayer and discussing and 
utilizing flexible collection tools, such as installment 
agreements, partial payment installment agreements, and offers 
in compromise. Further, the IRS should develop a better 
understanding of the reasons for noncompliance among small 
business taxpayers so it can apply appropriate collection 
techniques. Toward that goal, it should develop a definition of 
economic hardship for small businesses that balance tax 
collection and promotion of a level playing field on the one 
hand with the government's and taxpayers' interest in helping 
small businesses remain viable and contributing to the 
country's economic growth on the other.
    I appreciate your interest in these issues and would be 
happy to respond to collections--questions. Thank you. 
Collections, too. [Laughter.]
    Chairman Graves. Thank you, Ms. Olson.
    Our next witness, and I will be introducing on behalf of 
Mr. Walsh, but our next witness is Steven Strobel, the 
executive vice president and chief financial officer for 
BlueStar Energy Services, which is a retail energy supplier in 
Chicago, Illinois. He is testifying on behalf of the National 
Small Business Association. Mr. Strobel, we appreciate you 
being here. Thanks for coming.

                 STATEMENT OF STEVEN J. STROBEL

    Mr. Strobel. Thank you, Chairman Graves, Ranking Member 
Velazquez, Committee members. Thanks for the opportunity to 
testify today.
    Although NSBA's members operate a wide variety of 
businesses, they all consistently rank reducing the tax burden 
among their top issues Congress and the administration needs to 
address. While the actual out-of-pocket cost is a huge issue, 
the sheer complexity of the tax code has been an ever-
increasing administrative burden on America's small businesses, 
which unlike big corporations do not have large staffs of 
accountants, benefit coordinators, attorneys, personnel 
administrators, et cetera, at their disposal to deal with the 
regulatory and paperwork demands of the federal government.
    According to NSBA's 2011 Small Business Taxation Survey, 87 
percent of small business owners hire outside help to handle 
their tax reporting and filing requirements. The complexity of 
the current tax system forces small businesses to spend 
valuable time and financial resources on tax compliance instead 
of using these resources to do what they do best--grow the 
business and hire people. When asked in the NSBA Taxation 
Survey how much time and money per year is spent just on the 
administration of taxes, 50 percent of small businesses said 
they spend more than $5,000, and more than a third spend more 
than 80 hours on tax filing preparation. At BlueStar, we spend 
about $25,000 annually on our tax preparation.
    As Congress and the administration grapple with a 
downturned economy, banking failures, and skyrocketing deficit, 
it is natural to look for ways to offset spending and raise 
revenues. However, it would be unwise for Congress to do so on 
the backs of small business owners, the very entrepreneurs who 
create jobs. To grow their businesses and hire new employees, 
small business owners need dependable and sufficient access to 
capital and public policies that boost investment and encourage 
entrepreneurship.
    Reducing the U.S. deficit has a real benefit to small 
business growth in the U.S. and is something America's small 
business owners feel should be a national priority. Federal 
spending in 2010 amounted to approximately 24 percent of GDP, a 
level not seen since World War II, and in part due to an 
economic downturn. Even with an economic recovery and the 
ensuing increase in tax revenues and decrease in spending, 
without major changes federal spending will continue to outpace 
revenues. If we continue to run high deficits, increase 
interest, and constrict credit, it will negatively impact small 
businesses' ability to garner financing, and 80 percent of 
small businesses use credit.
    Congress and the administration over the coming years must 
address the nation's budget deficit and the associated long-
term debt. In addition to reducing the size and pay of the 
government workforce and overall entitlement spending, one way 
to do that is to implement real tax reform. Tax reform is one 
of the NSBA's top 10 priorities. Based on a 2011 NSBA Taxation 
Survey, small businesses express support for tax reform that 
simplifies the tax code, broadens the base, lowers all 
individual and corporate tax rates, and makes the corporate tax 
code more competitive for U.S. businesses.
    The current tax code is comprised of more than 10,000 pages 
of laws and regulations that, in their complexity and 
propensity for frequent change, serve as a disadvantage to 
small businesses. NSBA's members believe it is imperative that 
the U.S. move toward a simpler, fairer tax system that is 
designed to tax only once, is stable and predictable, is 
visible to the taxpayer, is simple in its administration and 
compliance, and is comprehendible using commonly understood 
finance and accounting concepts. And finally, is fair in its 
treatment to all citizens. These reforms can spur economic 
growth.
    Another factor to consider is the international 
competitiveness of U.S. firms. Congress and the administration 
must ensure that our tax code does not impede our international 
competitiveness of U.S. companies, nor disincentivize domestic 
investment. One way to accomplish this is by enacting the fair 
tax.
    In the 112th Congress, legislation has been introduced into 
the House and Senate, the Fair Tax Act of 2011, which the NSBA 
proudly supports. But whether it is the fair tax or any of the 
other tax reform recommendations that are currently on the 
table, any reform must be built around internationally 
competitive tax rules that result in a simpler, more efficient 
and less costly tax system that provides powerful incentives 
for businesses to invest and produce in the U.S. The economics 
of small businesses in all sectors would be strengthened by 
their ability to save and invest in this country and thus hire 
additional workers.
    The NSBA believes efforts to reduce the regulatory and 
administrative burdens on small businesses must focus on 
overall simplification, eliminating inequities within the tax 
code, and enhancing taxpayer education and outreach. A simpler 
tax code that is more easily understood by taxpayers would have 
many benefits, not the least of which would be reduced cost of 
compliance and reduced unintentional errors. Accurate tax 
reporting and compliance is extremely important to small 
businesses but vague rules and poorly defined regulation 
understandably result in mistakes.
    The more assistance offered to taxpayers and the simpler it 
is to understand and comply with tax laws, the more taxpayers 
will accurately meet their tax obligations, and with the 
complexity facing many taxpayers, NSBA believes that 
development and implementation of initiatives to improve IRS 
guidance and assistance is important.
    In conclusion, the NSBA is confident that fiscally 
responsible policies and entrepreneurially supportive tax 
simplification will lead to the long-term prosperity of the 
U.S. economy. It is critical that lawmakers avoid any move that 
would stymie the moderate economic growth we are starting to 
see in the U.S. economy and the growth in our small business 
community.
    Thank you.
    Chairman Graves. Thank you, Mr. Strobel.
    Ms. Velazquez.
    Ms. Velazquez. It is my pleasure to introduce Mr. Robert 
Kulp. He is the founder of Kulp's of Stratford, Wisconsin. His 
firm is a roofing and insulation company that has been in 
business since 1985 and employs over 40 people. Mr. Kulp is 
testifying on behalf of the National Roofing Contractors of 
America with over 4,000 members worldwide. Welcome.

                    STATEMENT OF ROBERT KULP

    Mr. Kulp. Thank you. Chairman Graves, Ranking Member 
Velazquez, and members of the Committee, thank you for the 
opportunity to testify today.
    I am Bob Kulp, co-owner of Kulp's of Stratford. We are a 
small roofing and insulation company doing residential and 
commercial roofing. We have also moved into installing and 
building integrated solar photovoltaic roofing. We employ 
between 30 and 50 people and we do about $6 million in annual 
volume.
    I am testifying today on behalf of the National Roofing 
Contractors Association, and I serve as a director, as well as 
chairman of the Government Relations Committee. Established in 
1886, the NRCA is one of the nation's oldest trade associations 
and a voice of professional roofing contractors worldwide.
    As the national unemployment situation continues to slowly 
improve, unemployment in the construction industry remains at 
an alarming 20 percent. Clearly, it is time to take steps to 
improve this situation. Reducing complexity in the tax code is 
a good place to start. NRCA urges Congress to take immediate 
action to simplify taxes in order to help spur job growth 
within the construction industry.
    First, Congress should facilitate the creation of an 
estimated 40,000 jobs by reforming tax depreciation for 
commercial roofs. Depreciation reform would also enhance the 
energy efficiency of our nation's commercial buildings and 
simplify taxes for many small businesses. Depreciation reform 
is necessary because between 1981 and 1993, the depreciation 
schedule for commercial roofs was increased from 15 to 39 
years. However, the current 39 year depreciation schedule is 
not a realistic measure of how long commercial roofs last, 
which is about 17 years. The large disparity between that 39-
year depreciation schedule and the 17-year average lifespan of 
a commercial roof is an incentive for building owners to delay 
the replacement of failing roofs. This slows economic activity 
in our industry because many building owners choose to just do 
piecemeal repairs rather than replacing a failing roof in its 
entirety.
    Several bills have been introduced in recent years to 
rectify this situation by reducing the depreciation schedule to 
a more realistic 20 years. This would facilitate the creation 
of an estimated 40,000 jobs in the roofing industry and add one 
billion dollars to the taxable annual revenue to the economy. 
Depreciation reform also would provide savings to small 
businesses of all types by simplifying their taxes and lowering 
energy costs. NRCA welcomes the opportunity to work with 
members of the Committee on legislation to create jobs by 
simplifying taxes through depreciation reform.
    Second, the NRCA calls for the immediate repeal of the 3 
percent withholding on government contracts. Repeal of this 
law, which adds a new layer of complexity to a contractor's tax 
filing, is vital to job creation and economic growth in our 
industry. If the withholding law is not repealed, many roofing 
contractors will face serious repercussions. Cash flow and 
operating capital disruptions will be a tremendous burden 
particularly for small businesses. The bookkeeping systems of 
many small businesses simply are not set up to account for 
those large amounts that are withheld from invoices and 
withholding will complicate tax filings. Additionally, many 
roofing contractors will be simply forced to stop bidding 
government contracts in order to avoid those costly tax 
complexities. NRCA strongly urges Congress to quickly repeal 
this law that further complicates tax filings due to the 2012 
implementation date that is fast approaching.
    Third, NRCA supports legislation to reduce tax complexity 
by reforming how construction contractors can utilize the 
completed contract method of accounting. Under current law, 
contractors cannot use the completed contract method if the 
annual average gross receipts exceed $10 million, a threshold 
that has not been adjusted for inflation since 1986. 
Contractors who cannot utilize a completed contract method must 
use a percentage of completion accounting method, which often 
does not accurately reflect results due to the required use of 
cost estimates. This is a major paperwork burden for many small 
and midsize contractors because of the need to estimate the 
percentage of a completed project and then retroactively amend 
those filings in subsequent years based on the actual numbers. 
This is another example of the complexity in the tax code that 
is an impediment to business growth and job creation, and 
increasingly more time and resources must be devoted to tax 
compliance rather than more productive forms of economic 
activity.
    To conclude, NRCA urges Congress to address the alarming 20 
percent unemployment rate in the construction industry by 
reducing tax complexity for contractors in our industry. Thank 
you for your consideration of the NRCA's views and the 
opportunity to testify today.
    Chairman Graves. Our next witness is Monty Walker. Mr. 
Walker is a principal of Walker Business Advisory Services in 
Wichita Falls, Texas. He advises start-ups and established 
small firms on business transactions and tax matters. Mr. 
Walker, I appreciate you coming.

                  STATEMENT OF MONTY W. WALKER

    Mr. Walker. Chairman Graves, Ranking Member Velazquez, and 
members of the Committee, thank you for the opportunity to 
appear before you today.
    My name is Monty Walker. I am a certified public 
accountant. I have a national advisory practice with a practice 
focus in the support of entrepreneurs, primarily in the area of 
business ownership transition planning and related support 
services.
    Small businesses face many obstacles. Buying or starting a 
small business is often one of the most significant financial 
events ever experienced by an entrepreneur. Entrepreneurs 
approach the process of owning a small business with a hope and 
desire of creating something better for their future while 
often exposing themselves to a large investment and debt. For 
many entrepreneurs, their small business is the center of their 
family's financial infrastructure providing the majority, if 
not all, of their family's current and future income.
    Because of the importance small business plays in the life 
of a small business owner, the division between the small 
business and the small business owner often becomes blurred 
because every business decision has a direct and often 
significant impact on the small business owner and the small 
business owner's family. Additionally, almost every decision 
made by a small business owner has some form of tax 
implication.
    Small business owners often start their business on a 
passion-based foundation doing something they enjoy, only to 
quickly learn that running a small business has many complex 
and confusing compliance requirements. Mail received from the 
various regulatory bodies becomes overwhelming. Unfortunately, 
many small business owners get out of compliance simply due to 
a failure to interpret correspondence being received from the 
IRS. This is especially true for small business owners who 
cannot afford the services of a tax professional.
    For most small business owners, understanding the tax 
compliance requirements is beyond their reach. The complexity 
of the tax system is as perplexing as a foreign language. Due 
to limited discretionary cash flow, many small business owners 
do not have the ability to retain the services of a tax 
professional on an ongoing basis. As a result, many small 
businesses are attempting to maintain a substantial amount of 
required compliance through the efforts of untrained and 
unknowledgeable tax advisors, these advisors being themselves.
    A lack of funds for ongoing professional assistance and a 
misinterpretation of the regulations often lead to failed 
compliance. The ever growing tax code, along with the temporary 
provisions and interpretations, make it increasingly difficult 
for small business owners to do any substantial long-term 
planning. This leads to small business owners being placed in 
the position to make decisions in a vacuum due to the unknown 
results which may occur. Since the tax system directly impacts 
so many decisions, small business owners will stand by on 
making business developments and new hire decisions when they 
have a lack of confidence in what will occur due to the 
unknowns in the tax system. This in part has added to and is 
currently adding to the soft business expansion and a lack of 
new hiring which is desperately needed as a part of the United 
States' economic recovery.
    Small business ownership is wrought with risk and burdens. 
The burdens of owning a small business expand exponentially 
when the confusion and complexity of the tax system is 
introduced to the small business ownership equation. 
Maintaining compliance with the various governmental regulatory 
bodies is extremely time consuming and this is especially true 
for tax compliance. Additionally, maintaining tax compliance 
comes at a cost. The cost to properly maintain regulatory 
compliance is really the small business owner's opportunity 
cost associated with expending the same resources on business 
operations and business development. These resources include 
both money and time. Between the money spent on tax 
professionals and time focused on maintaining compliance as 
opposed to spending the same time running the business, a small 
business owner's opportunity cost can be quite significant. 
Small business owners compliance time plus their compliance 
fees equals a small business owner's total opportunity cost.
    In preparation for this hearing, I polled 20 small business 
owners with businesses ranging in revenue from 1 million to 5 
million to determine their level of business opportunity cost. 
I learned that the average amount of time and fees expended by 
these business owners to maintain their tax compliance is time 
of 104 to 156 hours per year and professional fees ranging from 
$5,000 to $15,000 per year. When considering penalties and 
interest associated with the failure to maintain compliance, 
business opportunity costs can grow extremely large.
    Understanding that this business opportunity cost exists is 
of utmost importance because the business opportunity cost 
correlates with the lost resources that could have been used 
for business development which in turn leads to the creation of 
new jobs. Thank you.
    Chairman Graves. Thank you very much, Mr. Walker.
    We will now move into questions. Ms. Olson, I have to say 
that it is refreshing to hear you talk about your position and 
the Office of Advocacy and that you are advocating for 
taxpayers. Do they listen to you?
    Ms. Olson. I think that the IRS understands the complexity 
that taxpayers need to live with. They are doing some research 
now but they are not doing the kind of comprehensive research 
on taxpayer needs and preferences for small business taxpayers 
that I need to see.
    On the collection area, I think that they really feel the 
need to collect, collect, collect. They make very few phone 
calls out to taxpayers outbound to find out what is really 
going on in their situations. They often use levies as the 
calling card and get the call back in from the taxpayer saying 
what are you doing? I cannot make payroll. And there is 
generally a lack of sympathy in the employment tax area, which 
is why we are focusing so much on that area.
    One thing we learned was that for an account to get 
assigned to someone, an employment tax account get assigned to 
someone to actually make a face-to-face call with a taxpayer, 
there is usually two years of arrearages. And as I think the 
representative down there, Mr. Walker would say, the sooner you 
can get to the taxpayer when the dollars are low, you have a 
greater chance of solving the problem and keeping them in 
compliance in the future and keeping the business going. But 
when it gets so large, like two years' worth of employment 
taxes, that is the kiss of death for a business.
    Chairman Graves. My next question is--and I will start with 
Mr. Walker. And you can answer it from, obviously from your 
client's point of view; and Mr. Strobel, from your 
association's point of view; your members, Mr. Kulp. I do not 
know if it will pertain to you and I would like to hear Ms. 
Olson at the end. The administration is proposing higher taxes 
for pass-through small businesses that file their income taxes 
on an individual tax return--higher taxes for couples with 
incomes over $250,000 and individuals over $200,000. Can you 
tell me how that would affect your clients that fall into that 
area?
    Mr. Walker. The area of practice I am in really shows the 
misnomer in this concept of excess of 250. Small business 
owners spend years developing a business, and many times they 
are developing it so that they can have it for retirement. 
They, on paper, are worth a lot of money but they may not make 
a lot during the time. So they are below 250 possibly while 
they are operating, then all of a sudden the economic event 
occurs and they may sell that business for a million dollars, 
which is designed to be their retirement. All of a sudden, now 
under the excess of 250, that is a wealthy individual. So it 
has a significant adverse impact on their willingness to even 
sell and they hold out. But it will be an adverse impact, 
especially on their ability to have retirement funds. It goes 
well beyond just normal operating taxes. This is a life event 
that can be adversely impacted by decision to increase above 
the 250.
    Chairman Graves. Mr. Kulp, does it pertain to you?
    Mr. Kulp. I would agree with what he said but, no, it does 
not really directly.
    Chairman Graves. Mr. Strobel.
    Mr. Strobel. I would talk about it in the context of 
BlueStar. We are a sub S corporation so all of our income goes 
straight through to our two owners. And so any increase in tax 
would be a direct impact on the resources available in our 
company to invest, do marketing, understand other investments 
that we could make to actually grow the company. So it would be 
a diminution in the resources available to grow the company.
    Chairman Graves. Ms. Olson.
    Ms. Olson. Well, I get to pass on commenting about rates 
because that is really the, you know, the jurisdiction of the 
Office of Tax Policy in Treasury. But I would say, you know, 
our recommendation has been that you really simplify, you know, 
reduce the complexity of the code, really think long and hard 
about what is running through the code. And if you do that, you 
would have a broader base and be able to reduce rates for 
everyone involved. And that is sort of our position. We did it 
in 1986. I do not see why we cannot do it again.
    Chairman Graves. Mr. Kulp, you mentioned already some 
things, some specifics on simplification, which I appreciated, 
3 percent withholding and some other stuff. Just out of 
curiosity, Mr. Strobel or Mr. Walker, do you have any 
specifics? You mentioned a few, too, Mr. Walker, but other 
specific things when it comes to complexity? Are you talking 
total overhaul? You know, changing, you know, it is obviously 
very complicated now but any other ideas and thoughts? You 
know, coupled onto what Mr. Kulp said, too, about depreciation?
    Mr. Kulp. Depreciation is a significant problem. It is very 
complex. People do not know whether they should take a period 
expense or expense something immediately. So it is far beyond 
depreciation. If somebody is going to repair a vehicle, is that 
a depreciable event or is that a period expense? They spend--
you can spend hours just trying to determine how that applies. 
So that is a great example. Capitalization versus expensing. 
The issues that are a problem, especially when it comes to this 
depreciation matter, currently it does not matter if a business 
has been think long and hard about what is running through the 
code. And if you do that, you would have a broader base and be 
able to reduce rates for everyone involved. And that is sort of 
our position. We did it in 1986. I do not see why we cannot do 
it again.
    Chairman Graves. Mr. Kulp, you mentioned already some 
specifics on simplification, which I appreciated, 3 percent 
withholding and some other stuff. Just out of curiosity, Mr. 
Strobel or Mr. Walker, do you have any specifics? You mentioned 
a few, too, Mr. Walker, but other specifics when it comes to 
complexity? Are you talking about total overhaul? You know, the 
code is obviously very complicated now, but any other ideas and 
thoughts? You know, coupled onto what Mr. Kulp said, too, about 
depreciation?
    Mr. Strobel. Depreciation is a significant problem. It is 
very complex. People do not know whether they should take a 
period expense or expense something immediately. So it is far 
beyond depreciation. If somebody is going to repair a vehicle, 
is that a depreciable event or is that a period expense? They 
spend--you can spend hours just trying to determine how that 
applies. So that is a great example. Capitalization versus 
expensing. The issues that are a problem, especially when it 
comes to this depreciation matter, currently it does not matter 
if a business has been in existence for 50 years. You can 
recapture all this depreciation and it can all of a sudden 
create ordinary income passing out of a S corporation when they 
sell those assets. That makes very little sense to me why that 
would happen. So complexity added with something like that is 
significant.
    Mr. Walker. I will ask the NSBA to follow up after the 
hearing with their specific recommendations.
    Chairman Graves. Please do.
    Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Ms. Olson, there seems to be broad consensus that we should 
eliminate a number of deductions and credits and use those 
revenues to lower tax rates. However, when the recent deficit 
commission outlined a tax plan to accomplish this, it was 
blocked from being brought or considered in the House.
    So my question to you is how can comprehensive reform move 
forward if bipartisan recommendations like this never receive a 
vote?
    Ms. Olson. Well, I am not going to comment on the 
procedures of the House or the Senate. I am wiser than doing 
that. But I will respond by saying we have believed for a long 
time that there needs to be a dialogue and leadership, both in 
the House and in the administration, and also from the 
taxpayers themselves, that there has to be tax reform. And to 
up a plan, such as the Bipartisan Commission or the 2005 
Presidential Commission, all are a good start. There are lots 
of good ideas out there. And what we need is the political will 
to be willing to work through those ideas. And whether it is 
just slugging it out in the Ways and Means Committee and the 
Senate Finance Committee, and with the White House, we 
absolutely need this to go forward.
    Ms. Velazquez. Thank you.
    Mr. Walker, we would like to hear specific areas that we 
could simplify the tax code so that we could help small 
businesses do what they do best. So firms, based on your own 
experience, firms generally fund their business operation by 
taking on debt or through equity financing. Both have 
advantages and disadvantages, but it is clear that the tax code 
favors debt financing since interest is deductible.
    So can you talk to us, when you advise firms, do you 
advise--and they finance their business--do you believe that we 
should address how the tax code treats debt versus equity 
financing as one area that maybe this Committee should be 
looking into?
    Mr. Walker. If anything has changed in the area of debt so 
that a small business is incapable of deducting the interest 
expense, that would be an adverse blow. Small business owners 
do not have the benefit of getting equity players. I think we 
could all walk outside and say that we do not see a long line 
of people wanting to take risk in small business investment. 
That is why entrepreneurs become entrepreneurs. They risk their 
own investment in themselves. So anything to change the debt 
structure that would eliminate or lower the interest--the 
ability to take an interest deduction is an adverse. It should 
only be looked to enhance some benefit that they could get.
    Ms. Velazquez. Mr. Kulp, you spoke about the depreciation 
schedule that is set at 39 years. If we look at our economy, 
one area where still it is very fragile is the housing 
construction area.
    Mr. Kulp. Sure.
    Ms. Velazquez. And so you said that the depreciation 
schedule for commercial roofs will have a positive impact. How 
is that the case that it will benefit other small businesses?
    Mr. Kulp. Great question. The NRCA did an extensive study a 
number of years ago that actually said that it would spur 
economic growth to the point where there would be 40,000 new 
jobs added to the roofing industry alone. And when you look at 
that along with, you know, that much more money flowing into 
the economy, one of my issues is static scoring versus dynamic 
scoring on the CBO. And I know I am not going to change that 
but it seems to me that if you look at how it plays out, 
enhancing owners' ability to move with roofing will definitely 
spur jobs and reduce the unemployment rate.
    Ms. Velazquez. Thank you. Mr. Strobel, the Fair Tax Plan 
will impose a national sales tax and eliminate the income tax, 
as well as all current deductions and credits, yet this will 
mean that carrying tax incentives for renewable energy and 
energy efficient products will no longer exist. As someone in 
the energy industry, do you believe that these industries can 
remain viable without such policies?
    Mr. Strobel. I think they can. Just to be clear, as an 
executive with BlueStar I am not advocating the fair tax that 
is an advocate position of the National Small Business 
Association. I think there is a place for some incentives. We 
see that with a lot of energy efficiency customers that there 
is an opportunity for them to take advantage of incentives. But 
there are real economic gains in our energy efficiency 
businesses where we go in and do a lighting retrofit, for 
instance, in a facility. Part of it is the incentives that are 
available but more importantly, it is the economic benefits of 
actually using less energy. So in the grand scheme of things I 
think there are some incentives and some rationale to the 
incentives but we find that many of our customers are more 
driven by the overall economics whether or not there are 
incentives.
    Ms. Velazquez. Thank you, Mr. Chair.
    Chairman Graves. Mr. West.
    Mr. West. Thank you, Mr. Chairman and Ranking Member.
    We sat here and the question to the panel, we have all 
agreed that the tax code as it stands now is pretty complex, 
onerous, and I guess there are many with a loophole in there. 
So my question would be there are two reform perspectives out 
there: one is a flat tax and one is a fair tax. I would like to 
get your assessments on how those two reform systems, would it 
benefit or hinder the small businesses? And then maybe your 
estimation on what would be good rates for those respective 
systems. So flat tax, fair tax.
    Ms. Olson. Well, my office has written this past year or a 
year ago about a value-added tax and the administrative 
challenges for the Internal Revenue Service doing something 
like a sales tax that would be proposed in the fair tax. And we 
have concluded that it is doable. You would have to deal with 
the states, many of whom have their own and there are a lot of 
transition issues. Most of the countries around the world do 
not just have a sales tax alone because it would have to be so 
high. They have some kind of low level income tax and then a 
sales tax as well. So I think it is doable. It is just whether 
people will step up to that.
    I would note one thing. What some commentators have said is 
the sales tax sort of disappears how much tax you are really 
paying depending on how it is reported on your receipt. In some 
countries around the world you never see it broken out. It is 
in the broken price that shows up on your receipt at the end 
and you have to think do you really want that disappeared or do 
you want people conscious of what they are paying.
    Mr. Strobel. Congressman, I would say I do not know if 
there is--it is a binary choice. There is probably going to be 
a mixture of some sort of rate reduction, hopefully, and I 
think that is the key as far as we are concerned. I think the 
lower the taxes, the better for the business. The more 
investment we can make in the business the faster we can grow 
and the more people we can hire. So I think the notion of 
reduced tax rate, which implies a reduced level of government 
expenditure, I think is the key to the long-term prosperity of 
our economy.
    Mr. Kulp. As a small business owner I would say that 
anything that takes away the complexity and gives a long-term 
view is a good thing. It is so difficult with the complexity 
that we have now, you do not know really until the end of the 
year what we owe in taxes. I am an LLC. Money all flows through 
to me. I claim it on my personal income. The NRCA I do not know 
has taken a stance on this per se and I am here testifying on 
their behalf, but as a small business owner myself I would see 
that as an excellent alternative to a tax code that is miles 
thick.
    Mr. Walker. I concur with Ms. Olson. I do not see how we 
can level off with one sales tax and I am also concerned that 
eliminating all tax levels and going to a single sales tax 
demotivates capital improvement. You have got to provide some 
incentive for people to invest. And so this is a tough 
situation but I know we can minimize the impact to small 
businesses by lowering the complexity of the code, just 
removing it completely, and going to some single layer tax, 
that could be very tough.
    Ms. Olson. If I might add, I think some advocates of a 
sales tax, forget how complex the state sales tax are with all 
of their exemptions and what constitutes a service versus a 
product and things like that. So you might find that you just 
have added a new volume of the International Revenue Code when 
you, you know, enact a sales tax. So it can be complex.
    Mr. West. And a follow-up question for Mr. Kulp and Mr. 
Strobel then. What type of incentives do you think could be 
provided as far as our tax code to, you know, help you to grow 
your businesses?
    Mr. Kulp. That is a good question.
    Mr. West. Well, I try to think of good questions.
    Mr. Kulp. Well, and that is a stalling tactic. Good 
question.
    Mr. Strobel. At least for our business, clearly in the 
energy efficiency business I think there is some room for 
promoting more energy efficiency, more rationale allocation of 
resources, at least in the energy industry. And so I think 
there is room for that in our industry. There is no doubt about 
it.
    Mr. Kulp. And probably more on a global level, I guess, 
from my own, the way I think is I do not like when the 
government chooses winners and losers so I have a hard time in 
articulating that well. But the NRCA staff I am sure would be 
delighted to work with you on that.
    Mr. West. Thank you very much. And I yield back, Mr. 
Chairman.
    Chairman Graves. Mr. Schrader.
    Mr. Schrader. Thank you, Mr. Chairman.
    Briefly, to Mr. Walker and Ms. Olson. Last Congress passed 
a small business health care tax deduction and we all do these 
wonderful things trying to help small business. But my question 
to you two is have you gotten any calls on that and how easy is 
that actually?
    Ms. Olson. Well, it is a very complex deduction and my 
office has been working very hard to actually develop a 
calculator that we can roll out on, you know, we are going to 
test it internally with some fact patterns and then try to get 
it ready to roll out so that people can calculate how many 
full-time equivalents they have and how they meet that because 
it is a very complex provision. And if we do not do that, we 
will probably have a lot of inadvertent noncompliance. And more 
importantly, people not benefitting themselves, you know, 
achieving, receiving the benefits of a provision.
    Mr. Schrader. They will not take advantage.
    Ms. Olson. They will not take it. Mr. Walker, do you 
concur?
    Mr. Walker. I concur. I am glad Ms. Olson mentioned the 
calculator. In all of the calls that I have received on this I 
have been saying I hope somebody comes out with something to 
calculate this. So that is the answer we are all looking for.
    Mr. Schrader. All right. Very good. Very good.
    Pretty much everyone here has testified about the 
complexity of the tax code and there is a proposal out there. 
The only one I know of has gotten great bipartisan support on a 
national level and that was put forward by the Fiscal 
Commission. It does not get much simpler than eliminating every 
single tax expenditure and lowering all the rates to a 
mythological figure that no one in America could ever believe 
possible again of 814 and I think it is, what 25 percent or 
something like that? And corporate tax rate drops down to where 
we are almost competitive with the rest of the world. If you 
talk about the global competitiveness piece, to me, and of 
course you could add back targeted things to encourage 
investment at certain points in time when this Congress or the 
next Congress feel it is warranted or to take, you know, some 
disadvantaged populations.
    To me, I think if we had the political courage to do 
anything that is simple that even I could understand in my 
veterinary practice, it would be to do that type of proposal. 
Could you comment on whether or not you are for that proposal 
and what you think your members might be interested in?
    Mr. Walker. I believe moving down to a simpler tax 
structure will work. I will go back to a prior comment. When we 
removed all the barriers and create simplification, there still 
has to be something there to incentivize. And so what will 
occur inevitably is it will create--we will go down to a simple 
process and it will begin to re-expand itself with complexity 
because we have to provide incentives to invest. So I think 
that would happen.
    Chairman Graves. Mr. Kulp.
    Mr. Kulp. The overall tax code is not a part of this thing 
but back to the 3 percent withholding for government contracts. 
To me that is something that is so easy to eliminate and it 
just does not make sense. I know it is one small step but, 
again, that is, I guess, the only input I have on that.
    Chairman Graves. Mr. Strobel.
    Mr. Strobel. There is a lot of attractiveness in the 
simplicity of what you have just described. I like that a lot. 
I think that as far as targeted incentives for investment, I 
think the fact that companies would have more capital available 
to let them figure out what they would invest in.
    Chairman Graves. Good point.
    Mr. Strobel. I mentioned before, we talked a little bit 
about potential targeted investment in energy efficiency. I 
think that has a larger policy aspect to it, an energy self-
sufficiency, energy independence, element to it that is 
attractive to us as a company and to me personally.
    Chairman Graves. Ms. Olson.
    Ms. Olson. I think that, you know, we have recommended that 
we start with zero-based budgeting, that you just eliminate 
everything and then go piece by piece and say does this need to 
come in through the code? And that goes to the compelling 
public policy. Is there a public policy reason for putting 
something in the code? And then you ask what would it do to 
taxpayers who are the target of this public policy? Will they 
be able to comply with it? What will it do to the IRS? Will 
they torment taxpayers? Will the IRS not be able to administer 
it?
    If I could talk for a minute about the withholding 
requirement, one thing that we have recommended instead of the 
3 percent is to require federal contractors, you know, the 
federal agency that is contracting, to get a response from the 
IRS whether that contractor is in compliance with their federal 
tax obligations before the contract is awarded? And in that way 
you are doing it in a proactive way as part of a qualification 
process, a procurement process, rather than doing withholding. 
And you get to the same results. You are only giving contracts 
to contractors who are compliant with their federal taxes.
    Mr. Schrader. I think that is a good idea but simplicity is 
the key. I mean, the reason why we have all these gyrations 
with 3 percent is the government is trying to make money off of 
us at the bottom line and you pick winners and losers to your 
gentleman's comments and I think the beauty of what is being 
proposed by the Fiscal Commission allows us to do targeted or 
specific periods of time that I think Congress should review. 
And when that has outlived its usefulness and we moved to 
something else. It is energy maybe right right now. Maybe it is 
something else later on. I think I have a lot of confidence, 
believe it or not, in this Congress and in the Congress that is 
coming down the line but we have got to get small business some 
relief right now.
    Thank you. And I yield back.
    Mr. Barletta. Thank you, Mr. Chairman.
    My wife and I, we are small business owners and we were a 
subchapter S corporation so I understand how raising taxes on 
businesses and people earning over $250,000 will affect--have a 
direct effect on small business. Since I am here, I am a 
freshman, you know, all we have talked about was jobs and how 
we create jobs. And there is not a better committee than this 
Committee right here. When we talk about putting Americans back 
to work, seven out of ten jobs created are created by small 
business. So I understated how regulation and uncertainty 
affects small business.
    My question is to Mr. Walker. Can you please provide more 
details about the impact of Congress constantly reauthorizing 
expiring provisions of the tax code on your small business?
    Mr. Walker. It was evident in this last session when it was 
unknown whether the current regulations were going to be 
extended. Many small business owners sat on the sideline and 
many budding entrepreneurs sat on the sideline simply waiting 
to see what was going to happen. We saw a downturn in any 
movements, pretty much any movements of businesses 
transitioning ownership, new ones coming in. So when the 
regulations are constantly changing, long-term planning becomes 
essentially impossible and a small business owner, if they 
cannot get their hands around it, they will sit idle. And it 
happens. So it is a negative to the economy when that goes on.
    Mr. Barletta. So you would agree that, you know, passing a 
tax code for one year, two years, an extension of one or two 
years is not really doing anything to remove the uncertainty 
that small businesses are looking for to be able to invest and 
create jobs. And I am going to follow that up with the 
environment that we have created here in Washington with the 
overregulation and the uncertainty and government-run health 
care. All the obstacles that small businesses look at. Do you 
believe that we are stopping the entrepreneurial spirit of 
American right now by our own doing here in Washington?
    Mr. Walker. I know for a fact that buying--not allowing 
extensions or regulations to be for periods of 8 years and 10 
years. By not having that it does not motivate people to be 
willing to expose themselves to the kinds of debt and the risks 
it takes to really spur small business. I know that for a fact. 
So yes, doing these one- or two-year things are good for short-
term savings tax deductions but they do not serve long-term 
planning needs.
    Mr. Barletta. Thank you. I yield back, Mr. Chairman.
    Chairman Graves. Ms. Chu.
    Ms. Chu. Thank you, Mr. Chair.
    I would like to ask a question about the issue of 
classifying an employee as an employee or as an independent 
contractor. The IRS has a 20-factor test to determine 
classification and it's confusing and unclear from what I read 
from the testimony that you have submitted. And there are small 
businesses that fear the penalties that will ensue if a worker 
is misclassified. In addition, of course, workers can be 
cheated if they are misclassified because they do not receive 
benefits and could lose the protection of employment and labor 
laws. So it is to the benefit of everybody to be accurately 
classified as either an independent contractor or an employee. 
I know Mr. Walker and Ms. Olson, you both addressed this?
    Mr. Walker, what would we have to do to simplify the 
classifications so that both workers and employers could 
benefit?
    Mr. Walker. It would be a very definitive break to say the 
least. An employee falls into a particular category or a 
contractor falls into a particular category. Unfortunately, 
that is not the case right now. You simply have to make a 
decision based on what you think is applicable to that person. 
At present, if somebody is going to step up and be a 
contractor, if they were providing services to three or four 
other people doing similar type work, you can get comfortable 
with their contractor. But if they are only working for that 
one entrepreneur, then they may be an employee.
    Now, unfortunately, that puts the onus on the employer, the 
entrepreneur, to have to figure out what is going on in that 
person's life. And that is difficult. So there needs to be some 
very definite definitions put in place as to what is an 
employee versus a contractor.
    Ms. Chu. Do you have any suggestions?
    Mr. Walker. The type of work that they will be rendering. I 
think they have done a great job right now in saying does this 
person provide their own equipment? Are they controlled by the 
entrepreneur? That is a good way of doing it. But when you come 
in and look at the type of services that are being delivered, 
that is one way of breaking it down. It could be broken down 
into an industry. Make it very clear that the contractor, if 
they are going to place it with a contractor, has to submit 
something to the employer giving information about their 
background. Right now that is not required and it is simply a 
service agent uncovering something they find was not compliant 
and the entrepreneur is in trouble. So there has to be a bridge 
between the people who are being hired and the entrepreneur.
    But the code does need to come up somehow. The only thing 
that is there is the 20-point test and it is just designed to 
say is there much control. That is the only thing that is in 
the code right now, how much control is there? That needs to be 
somehow expanded.
    Ms. Chu. Ms. Olson.
    Ms. Olson. We have had lots of discussions with the 
business and small business community and their concerns are 
where we are with the status quo, that the IRS is not allowed 
to issue guidance other than what we have got out there. It is 
that they do not trust the IRS and what kind of guidance it is 
going to issue. So what we have proposed to break the logjam is 
that the IRS be instructed to engage with the business 
community and talk through just the very issues that Mr. Walker 
is raising, come up with some proposed guidance to submit to 
the tax writing committees, and that would form a basis. And 
then Congress could react to that if they felt that the IRS had 
not listened sufficiently to small business, et cetera.
    I think that, you know, where we are is that there does 
need to be change for all the reasons that you have mentioned. 
And I will say once we come up with the clear sense of where we 
want to go with this, I had visited the United Kingdom and they 
actually have on their website a question and answer process 
for the employer to go through and answer these questions and 
it will get an answer back. If they do not--if you are an 
employer or, you know, you have independent contractors, if you 
do not like the answer it is not binding you of appeal rights. 
But if you like the answer, then unless you have 
misrepresented, you can rely on that as a safe harbor. And I 
think that is what businesses need. You know, a safe harbor. 
They need certainty. They need to know one way or another so 
they can proceed and plan.
    Ms. Chu. Thank you. And could you also just say a few words 
about the business tax forms? You recommended two changes to 
business tax forms to improve reporting and tax compliance, 
just simply adding a line to Schedule C and adding check boxes 
to business tax returns. Could you elaborate on this?
    Ms. Olson. Well, actually, the IRS is actually going 
forward with this. One thing we had suggested was just that 
businesses be required to break out, you know, here are our 
receipts from 1099s that have been reported to the IRS. And 
here are our receipts other than what is being reported. And 
good accounting systems you just back out what your 1099s are. 
And we thought that would help drive some people who are in the 
cash economy to sort of report a little bit more.
    And then the other question was a lot of people do not know 
that they have to do this information reporting so we really 
wanted to jog people's memories and say, you know, if you are a 
small business person and you have paid people over $600 for 
services provided in the course of business, you know, have you 
filed your 1099s? And both of those are little behavioral 
reminders but would generate some additional income.
    As a former preparer, I have seen what my taxpayers have 
done, my clients did, you know. They would add up their 1099s 
and then they would add a couple thousand dollars and say that 
is the additional amount we made. But maybe they add up and say 
more than a couple thousand dollars if that question were 
there.
    Ms. Chu. And this is being implemented?
    Ms. Olson. The IRS is implementing a version of this now.
    Ms. Chu. Thank you. I yield back.
    Chairman Graves. Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman, and thank you to each 
and every witness for coming in today, especially you, Mr. 
Strobel, from close to home in Chicago. Thank you.
    Let me throw maybe a couple softballs your way. Expensing. 
Right now you have got to calculate depreciation and deduct 
that from your taxes. Would it be a heck of a lot easier if you 
could just write off the full cost of expenses in the first 
year? What would that do? What would that do, good or bad?
    Mr. Strobel. Well, from a tax perspective you would be 
better. I mean, there would be less tax to pay, more money 
available for investment.
    Mr. Walsh. And what would that lead to? Less tax to pay 
would lead to what?
    Mr. Strobel. More money to invest in the business. More 
money to grow the business. More money to market. More money to 
understand our customers. It should lead to growth. It should 
lead to us be more competitive, help us be more differentiated 
and be more profitable. But also be able to employ more people. 
We need people to grow the business.
    Mr. Walsh. Mr. Kulp.
    Mr. Kulp. I would agree with that. If the Section 179 I 
think it is called. I am not an accountant myself but my 
accountant tells me this, it is obviously put there for a 
reason by Congress because it does exactly what you are 
thinking it should do. It simply makes sense to be able to 
expense as much as possible. It makes you invest in the 
business, hire people, and buy goods and services that you 
otherwise would not.
    Mr. Walsh. Mr. Walker.
    Mr. Walker. I concur. If you are able to write off 100 
percent of your equipment costs, you lower income, lower tax, 
increase discretionary income. That is what allows somebody to 
actually make an investment and bring in people. I know on one 
occasion that I can think of right off the top of my head, a 
new business owner was coming in, had plans to hire five 
people, had to cut that down to three because they could not 
deduct a number of the items that they had projected they could 
once their accountant told them what they were actually going 
to be able to take as a deduction. A lot of it was equipment 
investment. So I know that that happens.
    Mr. Walsh. Ms. Olson, would that be a good thing?
    Ms. Olson. Well, I think you would also have to address the 
issue of recapture that Mr. Walker spoke about because in our 
office that is where we see problems for taxpayers. It is a 
gotcha. You know, they do not know it exists and then suddenly 
they have disposed of an asset that they depreciated fully 
under 179 and then the liability is all back to them. So you 
have to deal with that.
    Mr. Walsh. You know, thankfully, it looks like Congress is 
repealing the 1099 that was part of the health care legislation 
from last year. 1099s, though, are still an issue, even prior 
to this edition with the health care legislation. You still 
have to fill out 1099s and I am guessing that costs money and 
that is still a headache. Any sense as currently constituted 
they are an undue burden? Mr. Strobel? Mr. Kulp?
    Mr. Strobel. I guess I would say: Is it an undue burden? 
Filling out 1099s for us is not an undue burden.
    Mr. Walsh. Mr. Kulp.
    Mr. Kulp. For us I guess we have gotten used to it to the 
point where, you know, it is like a frog thrown into the frying 
pan. You do not really know. But I believe the repeal of the 
1099 within the health care provision is absolutely necessary 
because that would just proliferate them and make it very, very 
onerous and complex.
    Mr. Walsh. Mr. Walker.
    Mr. Walker. The 1099 reporting as it currently is without 
the additional, it needs to be there. And I happen to come 
across many people who believe that if they have been paid less 
than $600, they are not even supposed to pay income tax on 
that. So they even misunderstand the regs. But without having a 
1099 reporting, absolutely income tax collections would go 
down. People would find ways to hide that money because they 
would believe nobody knows they made it. So it is necessary 
with our current structure.
    Mr. Walsh. Ms. Olson, quick question. Is the IRS planning 
at all on implementing any sort of substantive e-filing system 
for business taxes?
    Ms. Olson. You know, I have not seen those plans and we 
have advocated for that for years. Even they used to have a 
system just for employment tax where you could use your 
telephone and they eliminated that. We did a study last year 
that said you need to reinstitute that. That is the only free 
electronic method for employment, you know, businesses to file.
    Mr. Walsh. Why do not you think there has been movement on 
that?
    Ms. Olson. I think it is a combination of both the concern 
on the part of the software developers, that the IRS is 
intruding on their environment, as well as it is not going to 
be a capital investment on the part of the IRS. You will need 
to fund the IRS to be able to do that.
    I just, I feel it really is a necessity. We have an 
obligation to do that, particularly for small businesses.
    Mr. Walsh. Thank you, all. Thank you, Mr. Chairman. I yield 
back.
    Chairman Graves. Mr. Altmire.
    Mr. Altmire. Thank you, Mr. Chairman.
    Mr. Walker, I want to follow up on the 1099 question. If 
the President signs as expected the repeal that the Congress 
sent him for the health care $600 1099s, what would the law 
then revert to? What is the threshold for filling out 1099 
forms?
    Mr. Walker. Six hundred dollars. It is right now $600 and 
greater. Now, there are different levels of 1099s but we are 
talking about just a general miscellaneous 1099 is a $600 
amount. And that is an appropriate amount. That should not go 
away.
    Mr. Altmire. Above that.
    Mr. Walker. Anything at that or above.
    Mr. Altmire. Thank you. Mr. Strobel, regarding the fair 
tax, I am glad you are here because I wanted to catch you with 
some questions on this or have a conversation. Is it your 
understanding under the Fair Tax proposal, what happens to the 
FICA tax, the Medicare and Social Security?
    Mr. Strobel. We are going to have to follow up with you and 
the National Small Business Association. We will follow up on 
that question. All right?
    Mr. Altmire. Okay. My concern on that would be what happens 
to the way we fund Social Security and Medicare under that. 
Where did that number come from, the 23 percent with regard to 
the fair tax proposal? It is budget neutral according to the 
proponents of the Fair Tax? Who is the determinant of that? Who 
scores it?
    Mr. Strobel. The NSBA will follow up with you on that.
    Mr. Altmire. Okay. What about the percentage--do you 
generally know as a small business what is the percentage of 
small businesses that comply with sales tax currently?
    Mr. Strobel. I do not know. That is another--we can follow 
up with you.
    Mr. Altmire. That would be a concern that I believe the 
number assumes 100 percent compliance and under current law 
there is certainly nothing close to 100 percent compliance on 
the sales tax. So if you could have somebody from the 
association follow up with us.
    Mr. Strobel. Yes, we will.
    Mr. Altmire. Ms. Olson, the IRS Commissioner recently 
stated that he would like to overhaul the tax, as you know, 
administration process by focusing on third party reporting, 
and namely he wants to move to a system where the IRS would 
already have third party information when taxpayers file their 
returns. And as we were discussing, the 1099 reporting is an 
example of third party reporting. Do you believe that there is 
a way to implement such a program without creating the same 
sort of situation that we had with the 1099 regulations under 
the health care bill?
    Ms. Olson. Well, first, a couple of years ago we 
recommended that Congress force the IRS to look at the issue of 
getting income data in real-time during the filing season so 
taxpayers could download it into their software programs or the 
IRS could make it available to taxpayers in another way. So I 
welcomed, you know, the Commissioner's, you know, remarks in 
that regard.
    I am concerned with the recent love of 1099 reporting. As 
much as I recognize and am an advocate for appropriate 1099 
reporting because it does change taxpayer behavior. Once they 
know that we know the information, 96 percent of the time they 
report it on their returns. But there is a point of diminishing 
returns where the IRS gets so much information or the burden is 
being imposed on taxpayers who do not normally keep track of 
that information that you just create a real headache, which is 
what we saw with the expansion of information reporting.
    So I think as we go out with information reporting we 
really have to think about that point of diminishing returns. I 
do not think the IRS should ask for information that it cannot 
do anything about or that the information itself is not really 
going to give us a clear picture of what is going on with 
taxpayers. Having said that, you know, we can tell the taxpayer 
a lot. We can tell them what their wages are. We can tell them 
what their interest is. We can now tell them what their capital 
gains or losses are because we have basis reporting. And all of 
those are really beneficial things for the taxpayers and will 
minimize errors.
    Mr. Altmire. Great. Thank you. Thank you, Mr. Chairman.
    Chairman Graves. Mr. Owens.
    Mr. Owens. Thank you, Mr. Chairman.
    Mr. Walker, there is some information that we have gotten 
that says there is about $160 billion a year that is spent in 
tax compliance work. Now, if we simplified the code, would we 
not put folks like you out of business in large numbers?
    Mr. Walker. It very well could be. Because I am here 
advocating that I will probably get some phone calls.
    Mr. Owens. From your colleagues I suspect.
    Mr. Walker. From my colleagues. It will not eliminate the 
profession; it will just change the dynamic of the services 
delivered.
    Mr. Owens. But certainly it will shrink it if we see a 
decrease in those kinds of dollars diverted, right?
    Mr. Walker. It would need to. Right.
    Mr. Owens. I just always am curious about the unintended 
consequences of what we do here.
    I want to raise one other question. We talked a little bit 
about the 179 deduction and there was some discussion about 
recapture issues, but there is also another issue that creates 
tax consequences and that is not matching up the amortization 
of the debt used to acquire the piece of capital equipment and 
the loss of the deduction because you have taken it in one 
year. Does that create any issues and do you see any way around 
that issue that we could implement?
    Mr. Walker. Is that for me?
    Mr. Owens. For you, yes.
    Mr. Walker. So your question is to the deduction on the 179 
that is compared to the actual cash outlay that has occurred?
    Mr. Owens. Correct. Well, not cash--if you do a cash outlay 
I agree it is not an issue.
    Mr. Walker. Okay.
    Mr. Owens. Because then it is a wash. But if you finance, 
which most small businesses do, capital acquisitions, then you 
are in a situation where unless you can repeat the process 
every year you are in a position where you are creating a tax 
where there is no income.
    Mr. Walker. You have got a deduction where there is no 
income?
    Mr. Owens. Right.
    Mr. Walker. Well, the deduction then can be moved. So once 
you have taken the deduction, the deduction goes up to zeroing 
out your income and then it flows over into the next year. So 
the carry forward could allow that to happen. I do not see a 
problem with people getting a full deduction. The problem I 
have is limiting the benefit that they can get from that 
deduction. Under current 179 regulations, if somebody owns five 
different S corporations and they all take advantage of the 
deduction, you will--that deduction goes to the individual tax 
return. And if the same person owns all businesses that person 
can only have one 179 deduction. So right now that is 500,000. 
But if you had 5 businesses maxing that out, there is 2.5 
million. That business owner could lose $2 million worth of 
deductions the way the code is written right now. So allowing 
the deductions is not the problem; it is making sure that you 
can benefit from that and moving it forward if you lose the 
ability to take a deduction in the year that you have actually 
done the 179 election.
    Mr. Owens. And we have also had a lot of conversation today 
about the issue of tax expenditures and whether or not we 
should eliminate all of those or whether, as you are 
suggesting, we should be doing targeting or targeted either tax 
deductions or tax credits. Does not that put Congress in the 
position of selecting winners?
    Mr. Walker. I do not know if it puts them in the position 
of selecting winners because it would apply across the spectrum 
of all the business owners. It is a targeting effect. Even if 
we simplify, just completely simplify, we will still have some 
targeting that will need to be done within the system over 
time. So it is the people who can take advantage of it and all 
these small business owners and the things at least we have 
talked about today, it applies to all of them. So it is not 
going to be one particular person or one particular sector.
    Mr. Owens. But it will be a particular--potentially a 
particular industry. Like, if you created an R&D credit for 
solar energy you would be solely focused on that particular 
industry.
    Mr. Walker. That would be accurate. But a 179 issue----
    Mr. Owens. Oh, I am sorry. I may have confused you because 
I was not just talking about 179. I was talking about the 
panoply of various credits we have in the tax code now.
    Mr. Walker. Right.
    Mr. Owens. If we eliminated all of those, and then you are 
suggesting we build them back up over time, you would be 
selecting winners to some degree, like we have now.
    Mr. Walker. Like we have now. Correct.
    Mr. Owens. Mr. Chairman, I yield back. Thank you.
    Chairman Graves. Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman, Chairman 
Graves, and Ranking Member Velazquez. And I want to thank the 
panel for testifying before us today.
    I would first like to just say that over the course of this 
Congress much has been said about our nation's deficit as it 
should be. I agree that we must aggressively tackle the debt. 
Unfortunately, I do not believe that we have been having an 
honest conversation with the American people about why we are 
in this deficit and how we can get out of it.
    Again, while I agree that we must address our deficit, it 
must be done responsibly. However, I disagree with the constant 
refrain of the majority that says that we do not have a revenue 
problem and I think that is at the heart of what small business 
is trying to address here today is the complexity of our tax 
system. The refrain is that we have a spending problem. The 
fact of the matter is that we have both.
    And at the beginning of the last decade we were operating 
with budget surpluses. Now we are operating at staggering 
deficits. And while we have two undeclared wars and an economic 
downturn have played a considerable role in increasing our 
debt, it is crystal clear that we began our sprint down this 
road due to what I believe were irresponsible tax cuts for 
those who could have most afforded them and robbing the 
Treasury of that much-needed revenue.
    The majority is now using this lack of revenue as a 
justification to cut programs for the most vulnerable 
Americans. And many of my colleagues on the other side have 
sort of echoed Mr. Strobel's testimony lamenting the 35 percent 
corporate tax rate as the world's most expensive and it limits 
our global competitiveness, yet on March 24th of this year The 
New York Times published a story on how General Electric, one 
of our nation's largest corporations paid absolutely 0 in taxes 
after posting 14.2 billion in profits, 5.1 billion which was 
made right here in the United States of America.
    So while I agree that we need to work hard to limit the 
burdens on our small businesses, and I agree in principle with 
President Obama about the need to reform the tax code, it seems 
to me that through our panel's testimony the goal here is to 
apply a tax code to our extraordinarily complex global economy 
that reflects little to no nuance or complexity. The attainment 
of the American dream is what makes our country and its civil 
society one of the greatest in the world. Our nation offers an 
opportunity for financial success and prosperity that cannot be 
found anywhere else on the planet. However, unfortunately, due 
to a number of factors, the attainment of the American dream 
has become elusive, so much so that many people, many small 
entrepreneurs are finding it hard to gain footing, access to 
capital, access to lending.
    So my question to the panel is what do you believe is the 
responsibility of those who have been successful to this 
country that has made their success possible? It is for the 
entire panel.
    Ms. Olson. I do not know how to answer that question other 
than to say that every person and entity owes an obligation to 
the United States to pay their fair share of taxes under our 
laws. And if our laws are structured in a way so that as 
Congress has enacted them so that those with the assets and the 
ability to retain advisors who can find ways to structure their 
affairs so they pay less tax than the person or the entity that 
cannot afford that, then we have a tax system that is out of 
whack. And our testimony has been--my testimony has been, and 
my writing have been to that point. I think that it is not 
possible to get pure simplicity in a code. We are human beings, 
and as you say, we live in a very complex world. But we can do 
a much better job than the environment that we have today.
    Ms. Clarke. What I find ironic is that we do not hear 
anyone speak out when, for instance, GE pays no taxes. I have 
not heard from all of the business councils, all of the small 
business councils. And it would seem to me that if we are 
talking about fair tax and fair share, that it should go both 
ways.
    And so I just wanted to put that on the table, Mr. 
Chairman, because I think we need to look at what is happening 
in its entirety. And I yield back.
    Chairman Graves. Any more questions? Well, I want to say, 
as this Committee continues to focus on job creation we 
certainly appreciate hearing from all of you on the complexity 
that small businesses deal with when it comes to following the 
tax code and the problems that creates when it comes to job 
creation.
    I wanted to let everybody know following today's hearing we 
are going to be sending a letter to the chairman and ranking 
member of the House Ways and Means Committee to share with them 
what we heard today. We want to make sure that small business's 
voice is being heard loud and clear when they are dealing with 
fundamental tax reform.
    So with that I would ask unanimous consent that members 
have five legislative days to submit their statements and 
supporting materials for the record. And again, I appreciate 
all of you coming out today and sharing with us your thoughts 
and ideas and concerns. The hearing is adjourned.
    [Whereupon, at 2:20 p.m., the hearing was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6457A.001
    
    [GRAPHIC] [TIFF OMITTED] T6457A.002
    
    [GRAPHIC] [TIFF OMITTED] T6457A.003
    
    [GRAPHIC] [TIFF OMITTED] T6457A.004
    
    [GRAPHIC] [TIFF OMITTED] T6457A.005
    
    [GRAPHIC] [TIFF OMITTED] T6457A.006
    
    [GRAPHIC] [TIFF OMITTED] T6457A.007
    
    [GRAPHIC] [TIFF OMITTED] T6457A.008
    
    [GRAPHIC] [TIFF OMITTED] T6457A.009
    
    [GRAPHIC] [TIFF OMITTED] T6457A.010
    
    [GRAPHIC] [TIFF OMITTED] T6457A.011
    
    [GRAPHIC] [TIFF OMITTED] T6457A.012
    
    [GRAPHIC] [TIFF OMITTED] T6457A.013
    
    [GRAPHIC] [TIFF OMITTED] T6457A.014
    
    [GRAPHIC] [TIFF OMITTED] T6457A.015
    
    [GRAPHIC] [TIFF OMITTED] T6457A.016
    
    [GRAPHIC] [TIFF OMITTED] T6457A.017
    
    [GRAPHIC] [TIFF OMITTED] T6457A.018
    
    [GRAPHIC] [TIFF OMITTED] T6457A.019
    
    [GRAPHIC] [TIFF OMITTED] T6457A.020
    
    [GRAPHIC] [TIFF OMITTED] T6457A.021
    
    [GRAPHIC] [TIFF OMITTED] T6457A.022
    
    [GRAPHIC] [TIFF OMITTED] T6457A.023
    
    [GRAPHIC] [TIFF OMITTED] T6457A.024
    
    [GRAPHIC] [TIFF OMITTED] T6457A.025
    
    [GRAPHIC] [TIFF OMITTED] T6457A.026
    
    [GRAPHIC] [TIFF OMITTED] T6457A.027
    
    [GRAPHIC] [TIFF OMITTED] T6457A.028
    
    [GRAPHIC] [TIFF OMITTED] T6457A.029
    
    [GRAPHIC] [TIFF OMITTED] T6457A.030
    
    [GRAPHIC] [TIFF OMITTED] T6457A.031
    
    [GRAPHIC] [TIFF OMITTED] T6457A.032
    
    [GRAPHIC] [TIFF OMITTED] T6457A.033
    
    [GRAPHIC] [TIFF OMITTED] T6457A.034
    
    [GRAPHIC] [TIFF OMITTED] T6457A.035
    
    [GRAPHIC] [TIFF OMITTED] T6457A.036
    
    [GRAPHIC] [TIFF OMITTED] T6457A.037
    
    [GRAPHIC] [TIFF OMITTED] T6457A.038
    
    [GRAPHIC] [TIFF OMITTED] T6457A.039
    
    [GRAPHIC] [TIFF OMITTED] T6457A.040
    
    [GRAPHIC] [TIFF OMITTED] T6457A.041
    
    [GRAPHIC] [TIFF OMITTED] T6457A.042
    
    [GRAPHIC] [TIFF OMITTED] T6457A.043
    
    [GRAPHIC] [TIFF OMITTED] T6457A.044
    
    [GRAPHIC] [TIFF OMITTED] T6457A.045
    
    [GRAPHIC] [TIFF OMITTED] T6457A.046
    
    [GRAPHIC] [TIFF OMITTED] T6457A.047
    
    [GRAPHIC] [TIFF OMITTED] T6457A.048
    
    [GRAPHIC] [TIFF OMITTED] T6457A.049
    
    [GRAPHIC] [TIFF OMITTED] T6457A.050
    
    [GRAPHIC] [TIFF OMITTED] T6457A.051
    
    [GRAPHIC] [TIFF OMITTED] T6457A.052
    
    [GRAPHIC] [TIFF OMITTED] T6457A.053
    
    [GRAPHIC] [TIFF OMITTED] T6457A.054
    
    [GRAPHIC] [TIFF OMITTED] T6457A.055
    
    [GRAPHIC] [TIFF OMITTED] T6457A.056
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
